      United States Department of Agriculture




Office of Inspector General
USDA StrikeForce Initiative




                                       91099-0002-21
                                       September 2014
                                                     USDA StrikeForce Initiative 

                                                     Audit Report 91099-0002-21 



What Were OIG’s

Objectives


The objectives of the audit
were to verify that USDA
agencies properly transferred     OIG reviewed how OAO implemented the
funds to OAO for use in the       StrikeForce Initiative pilot program, which
StrikeForce Initiative pilot
program and that CBOs used        was intended to help farmers in poverty-
the funds in accordance with      stricken and predominantly minority areas
Federal requirements and          gain access to USDA programs.
rules.
                                  What OIG Found
What OIG Reviewed
                                  Based on our review, the Office of Inspector General (OIG) found
We reviewed the almost            that the Office of Advocacy and Outreach (OAO) did not effectively
$2.7 million in funding           implement the StrikeForce Initiative pilot program to ensure that the
transferred for the StrikeForce   program’s goals were met. Instead, OAO bypassed Federal
Initiative pilot program,         regulations and hand-picked four community-based organizations
including evaluating the          (CBO). The CBOs generally had questionable qualifications to
reimbursable agreement            adequately achieve the goals of the initiative.
process used to collect the
funding, reviewing all of the     OIG also found problems with how the Office of Small
reimbursable agreements           Disadvantaged Business Utilization and other USDA agencies
issued, and evaluating the        transferred almost $2.7 million to OAO to fund the StrikeForce
award process.                    Initiative pilot program—$300,000 of these funds were not properly
                                  approved for the program. Ultimately, OAO did not fully ensure that
What OIG Recommends               the transferred funds met the specific purpose for which they were
                                  originally appropriated, or that they were used in the best interest of
                                  the Federal Government.
OIG recommended that OAO
review the CBOs to determine      Additionally, OIG found that OAO did not properly authorize the
if they carried out the           additional disbursement of $784,152 in StrikeForce funding to two
program’s goals, improve how      CBOs. OAO originally approved cooperative agreements totaling
the office monitors CBOs,         $600,000 for these two CBOs, but did not issue new agreements for
strengthen controls over how      the additional $784,152.
the Department transfers funds
between programs, and correct     Finally, two CBOs had approximately $303,000 in funds from the
the deficiencies we noted in      StrikeForce Initiative pilot program that were unused after the
grant funds distributed to        expiration date listed on the cooperative agreements. OAO officials
CBOs.                             were unaware that these funds were unspent and needed to be returned
                                  to USDA. OAO generally agreed with our 13 recommendations.
                           United States Department of Agriculture
                                  Office of Inspector General
                                    Washington, D.C. 20250




DATE:          September 25, 2014

AUDIT
NUMBER:        91099-0002-21

TO:            Gregory L. Parham
               Assistant Secretary for Administration

               Carolyn Parker
               Director
               Office of Advocacy and Outreach

ATTN:          Lennetta Elias
               Audit Liaison Officer

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       USDA StrikeForce Initiative


Attached is a copy of the final report on the subject audit. Your written response to the official
draft, dated September 5, 2014, is attached, with excerpts from your response and the Office of
Inspector General’s position incorporated into the relevant Finding and Recommendation
sections of the report.

Based on the agency’s written response to the official draft report, we are able to accept
management decisions on Recommendations 3, 5, 6, 7, 8, 9, 10, 11, and 12. We are unable to
accept management decisions on Recommendations 1, 2, 4, and 13. The documentation or
action needed to reach management decision for these recommendations are described under the
relevant OIG Position sections.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommendations for which management decisions have not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Agency Financial Report. Please follow your
internal agency procedures in forwarding final action correspondence to the Office of the Chief
Financial Officer (OCFO).
Gregory L. Parham                                                                            2


We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available
information and will be posted in its entirety to our website (http://www.usda.gov/oig) in the
near future.

Attachment

cc: (w/attachment)
Director, Fiscal Policy Division, OCFO
Table of Contents

Background and Objectives ................................................................................... 1
Finding 1: OAO Ineffectively Implemented the StrikeForce Initiative Pilot
Program ................................................................................................................... 4
         Recommendation 1 ........................................................................................9
         Recommendation 2 ......................................................................................10
         Recommendation 3 ......................................................................................10
         Recommendation 4 ......................................................................................11
Finding 2: USDA Did Not Properly Transfer Funds to Pay for the StrikeForce
Initiative Pilot Program ........................................................................................ 12
         Recommendation 5 ......................................................................................14
         Recommendation 6 ......................................................................................15
         Recommendation 7 ......................................................................................15
         Recommendation 8 ......................................................................................16
Finding 3: USDA Overpaid CBOs and Excess Funds Were Not Returned to
Contributing Agencies .......................................................................................... 17
         Recommendation 9 ......................................................................................19
         Recommendation 10 ....................................................................................20
         Recommendation 11 ....................................................................................20
         Recommendation 12 ....................................................................................20
Finding 4: OAO Was Unaware that CBOs Had Expired StrikeForce Funds 22
         Recommendation 13 ....................................................................................23
Scope and Methodology ........................................................................................ 24
Abbreviations ........................................................................................................ 26
Exhibit A: Summary of Monetary Results ......................................................... 27
Agency's Response ................................................................................................ 28
Background and Objectives 
Background
The Office of Advocacy and Outreach (OAO), an office within Departmental Management (DM)
of the United States Department of Agriculture (USDA), was established by the Food,
Conservation, and Energy Act of 2008 to improve access to USDA programs and to improve the
viability and profitability of small farms and ranches, beginning farmers and ranchers, and
socially disadvantaged farmers and ranchers.1

In September 2010, the Secretary of Agriculture established an initiative through OAO entitled
“StrikeForce” (StrikeForce Initiative). The StrikeForce Initiative was established to assist
agricultural producers and communities in poverty-stricken and predominantly minority areas to
gain access to USDA programs.2 USDA used community-based organizations (CBO)3 to pilot
the StrikeForce Initiative (referred to as the StrikeForce Initiative pilot program) and perform
outreach activities in Arkansas, Georgia, and Mississippi. USDA DM officials stated that the
CBOs had more credibility in those States than local USDA agency officials.4

A total of 13 USDA agencies, as well as the People’s Garden Initiative,5 transferred almost
$2.7 million through reimbursable agreements to fund the StrikeForce Initiative pilot program.
The interagency transfers were made using USDA’s financial management system—Financial
Management Modernization Initiative (FMMI). OAO provided the reimbursable agreements to
DM’s Financial Management Division (FMD), which obligated and transferred the funds within
FMMI.6

Federal regulations require that awarding agencies (e.g., OAO) enter into grants and cooperative
agreements with outside entities only after competition.7,8 The regulations further state that the
awarding/approving official may make a determination in writing that competition is not deemed
appropriate; however, this is limited to situations where it can be adequately justified that a
non-competitive award is necessary and is in the best interest of the Federal Government.



1
  The term “socially disadvantaged” is defined in Section 2501 of the Food, Agriculture, Conservation, and Trade
Act of 1990 as a group whose members have been subjected to racial or ethnic prejudice because of their identity as
members of a group without regard to their individual qualities.
2
  For purposes of this initiative, high-poverty counties are those identified by the U.S. Census Bureau with poverty
rates of 20 percent or more.
3
  CBOs are public or private nonprofit organizations that provide educational or related services to individuals in a
community.
4
  These DM officials did not provide support for this statement.
5
  The People’s Garden Initiative began in 2009 in an effort to challenge USDA employees to create gardens at
USDA facilities.
6
  FMD was also responsible for the budget execution of all financial documents received from OAO (e.g.,
procurement requests, requests for reimbursement, and reimbursable agreements).
7
  Cooperative agreements were used to establish funding agreements between OAO and the CBOs. Reimbursable
agreements were used to transfer funds between USDA agencies and OAO.
8
  7 C.F.R. §3015.158.

                                                                          AUDIT REPORT 91099-0002-21                1
Federal regulations outline the process for awarding grants and cooperative agreements,
including requests for proposals, evaluation of proposals, project solicitations, and approval of
applications.9

OAO, at the direction of DM officials, noncompetitively selected four CBOs to participate in the
StrikeForce Initiative pilot program. OAO awarded cooperative agreements totaling $1.7 million
to the CBOs as follows: $500,000 to a CBO in Georgia,10 $200,000 to one CBO in
Mississippi,11 $600,000 to a second CBO in Mississippi, and $400,000 to a CBO in
Arkansas.12,13

OAO developed a strategic plan for the StrikeForce Initiative pilot program.14 The strategic plan
had two components: farming and community development. It also established three goals for
underserved and minority communities: (1) to promote USDA and its programs, (2) to provide
access to USDA programs and services, and (3) to build stakeholder credibility and trust. Within
each goal, the strategic plan outlined specific objectives, action plans, and performance
measures. It also established minimum performance and reporting requirements for the CBOs to
meet. Further, it stated that OAO would monitor performance reports to ensure that the CBOs
were meeting minimum performance requirements.

OAO was responsible for managing the StrikeForce Initiative pilot program. One of its key
responsibilities was to maintain communication with State office StrikeForce coordinators (State
coordinators)15 and CBO officials. OAO was also responsible for monitoring the following
reports submitted by the CBOs: the monthly outreach reports; the SF-269, “Financial Status
Reports;” and the SF-270, which was a request to expend funds. OAO approved the requests to
expend funds and forwarded them to FMD for processing. FMD executed and disbursed the
payments through the FMMI system.

In October 2011, USDA received a hotline complaint alleging that OAO was being mismanaged
by                                             . As a result of this complaint, the Secretary of
Agriculture asked the Office of Inspector General (OIG) to conduct an audit of OAO’s grant
management process prior to the final selection of awardees designated to receive fiscal year
(FY) 2012 grants. OIG performed an audit and reported to the Secretary that the applicants
initially selected by OAO officials to receive FY 2012 grants through the Outreach and
Assistance for Socially Disadvantaged Farmers and Ranchers Program (Section 2501 Program)

9
  7 C.F.R. §3015.158.
10
   The CBO in Georgia was instructed to transfer $100,000 of its funding to a sub-recipient in Mississippi.
11
   Although the cooperative agreement with this Mississippi CBO was for $200,000, the CBO actually received
$380,000 in funding. The additional funding was for the People’s Garden Initiative; however, there was no
amendment or new agreement established for this excess amount.
12
   Although the cooperative agreement with the CBO in Arkansas was for $400,000, this CBO actually received
slightly more than $1,000,000 in funding for special projects assigned by OAO. However, there was no amendment
or new agreement established for the additional funding.
13
   These funds were spent on such projects as collecting assessments of flood and wind damage to crops, as well as
conducting cooking classes.
14
   StrikeForce Strategic Plan, dated December 2010.
15
   USDA officials with Rural Development, the Farm Service Agency, and the Natural Resources Conservation
Service, which coordinated meetings between the Federal agencies involved with the StrikeForce Initiative pilot
program and the selected CBOs.

2     AUDIT REPORT 91099-0002-21
were, likely, not the most meritorious and deserving candidates. 16 OAO officials had
disregarded regulatory requirements and guidelines in making those selections. Also, they had
no documentation to support their decisions and could not explain why some applicants that
appeared more deserving than others were not selected to receive grant funds. Based on our
audit work in the Section 2501 Program, OIG management determined it necessary to conduct
more in-depth audits focusing on OAO’s activities related to grants awarded in FYs 2010 and
2011, and the StrikeForce Initiative pilot program.

Objectives
The objectives of the audit were to verify that: (1) USDA agencies properly transferred funds to
OAO for use in the StrikeForce Initiative pilot program, (2) OAO properly approved and FMD
properly disbursed funds to the CBOs, and (3) the CBOs used the funds in accordance with
Federal requirements and rules established as part of the StrikeForce Initiative pilot program.




16
  Audit 91099-0001-21, Controls Over the Grant Management Process of the Office of Advocacy and Outreach,
February 2013.

                                                                    AUDIT REPORT 91099-0002-21              3
Finding 1: OAO Ineffectively Implemented the StrikeForce Initiative Pilot
Program
In 2010, the Department launched the StrikeForce Initiative pilot program primarily to help
agricultural producers and communities in poverty-stricken, predominantly minority rural areas
have equal access to USDA programs. We determined that OAO did not effectively execute the
StrikeForce Initiative pilot program to ensure that the primary goals of the program were met.
This occurred because OAO bypassed Federal regulations when selecting the CBOs. The four
CBOs that participated in the program were selected without regard to qualifications and without
using a competitive process, as required. We found that three of the four hand-picked CBOs had
questionable qualifications to adequately achieve the goals of the initiative. In addition, OAO
did not put a sufficient process in place to adequately measure the accomplishments and results
of the CBOs. As a result, although the goals of the StrikeForce Initiative pilot program were
worthwhile, we found insufficient evidence to support that positive results were achieved for the
program’s goals and question the almost $2.7 million in funds that were not provided on a
competitive basis to the CBOs.

Federal regulations require competition by agencies when awarding discretionary grants and
cooperative agreements.17 The regulations allow an approving official to make a determination
in writing that competition is not deemed appropriate. However, an approving official must be
able to justify that a noncompetitive award was in the best interest of the Federal Government
and necessary to accomplish the goals of the program.18

According to the StrikeForce strategic plan, the three goals of the pilot program were to:
(1) promote USDA within underserved and minority communities, (2) provide access to USDA
programs and services, and (3) build stakeholder credibility and trust. The Department piloted
the StrikeForce Initiative in three States: Arkansas, Georgia, and Mississippi. USDA assigned
OAO the responsibility for selecting the CBOs and for entering into cooperative agreements with
these organizations.                                    the cooperative agreements with four
CBOs: one in Georgia, two in Mississippi, and one in Arkansas.

OAO Bypassed Regulations in Selecting CBOs with Questionable Qualifications

OAO bypassed Federal regulations and did not use a competitive process to select CBOs, as
required. The use of a competitive process would have included requests for proposals and
application forms.19 We interviewed several current and former USDA officials to determine
why they did not use a competitive process to select the four CBOs, and to obtain information
about the process used to select them. The officials included
          , as well as                           that were involved in the implementation of the




17
   7 C.F.R. §3015.158.
18
   7 C.F.R. §3015.158(d).
19
   7 C.F.R. §3015.158(a)(1) and (2), and 7 C.F.R. §3015.157.

4     AUDIT REPORT 91099-0002-21
StrikeForce Initiative pilot program.20 In general, with the exception of
                                       , these officials all stated that they were not aware of the
process used to select the four CBOs. We also reviewed any documentation that OAO
maintained related to the CBO selection process.21

                               at the time of the CBO selections could not explain why the CBOs
were selected without competition. The official stated that the names of the four CBOs were
provided to      by the                                                                     .22
                                                                           stated that  was not
directly involved in the StrikeForce Initiative pilot program and did not know how the CBOs
                                                                    23
were selected.                                                         acknowledged that hand-
picked the four CBOs without competition, generally based on recommendations from people
knew in the local communities located in the three States. For example, explained that
selected one CBO because USDA had failed in its past outreach efforts to socially disadvantaged
communities in the area near the CBO and believed that the communities would better relate
to the owner of that CBO.

OIG questions whether these CBOs would have been selected for the StrikeForce Initiative pilot
program if they had been part of an open and competitive application process to award the
StrikeForce funds. We determined that the CBOs, in general, had questionable qualifications,
which we describe in the paragraphs below.
and                                    both bypassed the Federal regulations in the non-
competitive selection of the four CBOs.24 Both shared responsibility to ensure that OAO
adhered to Federal regulations to award discretionary grants and cooperative agreements only
after competition.                                                                       ; however,
                                  is still employed by OAO.
        all four cooperative agreements with the selected CBOs, but did not maintain any
documentation to justify the selection of the CBOs without competition, as required by
regulations.25 According to                                    , did not participate in any
meetings for selecting the CBOs, but just ensured that the cooperative agreements were
completed. In doing so, this official did not comply with Federal regulations. Although
                               was following the instructions of                            , in our
opinion, this does not alleviate    responsibility to follow Federal regulations and, as such,


20
     We interviewed the                                           ,
                            ,
                                                                                             and
                            .
   The documentation maintained by OAO consisted of the cooperative agreements and a general one-page summary
describing background information of the four selected CBOs.
22
                                               was                of the                        .
23
   This official                       .
24
   7 C.F.R. §3015.158.
25
                             stated that           all four agreements. However, we were only able to locate two
agreements with               within the files maintained by OAO. The other two agreements were later            a
different              that was appointed to the position. This official           these two agreements in
because identified that they were missing from OAO’s records.            stated that wanted to make sure that
replaced the two missing agreements.

                                                                        AUDIT REPORT 91099-0002-21              5
                                          actions. DM should
                                                    for bypassing Federal regulations.

We also concluded that three of the four hand-picked CBOs had questionable qualifications to
meet the goals of the StrikeForce Initiative pilot program. There were several reasons why we
questioned the qualifications of these three CBOs. First, some of the CBOs were not prepared to
perform outreach efforts and other activities outlined by the StrikeForce Initiative when they
were selected to participate in the pilot program. For instance, one CBO had been in operation
for only four months prior to receiving funds through the program.26 Another CBO was in
existence, but it did not have sufficient staff and had no management to oversee its StrikeForce
activities. The CBO delayed starting any projects for several months because of these
deficiencies, and had to apply for a no-cost extension27 because it could not use the funds within
the 2-year agreement period.

We also determined that three of the four CBOs had little to no experience with either USDA
programs or with performing outreach activities. As stated above, one CBO had not been in
operation prior to the StrikeForce Initiative pilot program. The staff and management of the
CBO, from the available records we reviewed, had no experience with agriculture, USDA, or the
type of outreach activities needed for the StrikeForce Initiative pilot program. Thus, in our view,
the CBO was not qualified to accomplish the goals of the StrikeForce Initiative. With respect to
another CBO,                                                for the area informed us that the CBO
had limited agricultural experience and that there were other organizations in the State, including
colleges and universities, with agricultural backgrounds that would have been more qualified to
meet the goals of the StrikeForce Initiative pilot program. Finally, while the third CBO was
established in 2004, our review disclosed that its operation was focused only on the overall
health, nutrition, and physical fitness of local residents. While this activity was worthwhile, it
was not in line with all three goals of the StrikeForce Initiative, as articulated in the strategic
plan. Thus, we concluded that it was probably not the most qualified CBO to participate in the
pilot program.

CBO Activities Were Not Effectively Monitored and Measured

We found that OAO did not adequately monitor and measure the accomplishments and results of
the CBOs. OAO did not require financial and accomplishment reports from the CBOs28 and did
not provide guidance to the CBOs on how to use StrikeForce funding to achieve the goals in the
strategic plan. Therefore, OAO officials did not ensure that the CBOs met the performance goals
of the strategic plan. Because OAO had not adequately monitored financial reports, it was
unaware that approximately $303,000 of funds had expired and were not returned to USDA, as
required (see Finding 4).



26
   According to the Chairman of the Board of Directors for the CBO, this CBO was established in October 2010
after the StrikeForce Initiative started. We made several requests to obtain the articles of incorporation from the
Chairman of the Board to support his statements; however, he was not able to provide this document to us.
27
   No-cost extensions provide additional time to complete work without requesting additional Federal funds.
28
   StrikeForce Strategic Plan, dated December 2010.

6     AUDIT REPORT 91099-0002-21
All three of the goals within the strategic plan contained an objective, action plan, and
performance measures. For the first goal, the objectives were to increase awareness of USDA
programs by taking information to targeted groups, and to promote trust in USDA by developing
relationships with key figures in underserved minority communities. The performance measures
of this goal were to increase the number of farmers in the selected counties by 10 percent, initiate
measures that foster a sustainable food system, and increase community development and
infrastructure in these targeted rural counties. The second goal’s objectives were to recruit new
farmers, retain existing farmers, increase interest in USDA programs/visibility of CBOs in target
counties, and educate county government staff about USDA programs. The performance
measures for this goal were to increase the number of farmers in socially disadvantaged counties,
increase the retention of existing farmers in selected socially disadvantaged counties, and create
revitalized communities. Finally, for the third goal, the objectives were to formulate a
communications strategy, provide one-on-one technical assistance, formulate a marketing
strategy, and create a replicable model. The performance measures included increasing the
credibility of USDA and establishing trust with the CBOs.

The strategic plan established a requirement for the CBOs to submit monthly financial and
accomplishment reports.29 These reports were to enable OAO to ensure that the CBOs were
meeting the goals, objectives, and performance measures of the strategic plan. We requested that
OAO provide us with all documentation it received from the CBOs to determine whether the
CBOs met the goals and achieved the required performance measures, as well as to determine if
OAO provided adequate oversight of the StrikeForce Initiative pilot program. OAO was unable
to provide any accomplishment or financial reports, or specific details related to the CBOs’ use
of funds. Rather, we found that it was the StrikeForce                     that were completing
the review of the financial and accomplishment reports.

We contacted the                        and found that the review of these reports was limited to a
cursory review and did not evaluate the CBOs’ performance. Instead, the review was used for
extracting success stories from the accomplishment reports to brief the Secretary’s office. The
                     did not review the financial reports for accuracy, the types of activities
completed, or to determine whether the strategic plan’s goals and measures were being fulfilled.
We also found that the                         did not enforce the submission of reports on a monthly
basis, as required. Additionally, we determined that OAO officials were not ensuring that the
                     were collecting the monthly reports. Therefore, we concluded that OAO
officials and the                      did not have an adequate process in place to determine
whether the CBOs were accomplishing the goals of the pilot program and meeting the
performance measures of the strategic plan. OAO’s standard operating procedures, which
included instructions for monitoring program areas, only applied to its Section 2501 Program and
did not apply to all of its other activities, including the StrikeForce Initiative pilot program.
Therefore, OAO needs to revise its standard operating procedures to be applicable to all program
areas (this is further discussed below).

29
   This requirement was not listed in the CBOs’ cooperative agreements. In addition, the strategic plan used the
term outreach reports, rather than accomplishment reports. However, during our meetings with OAO officials, they
used the term accomplishment reports; thus, we are using that term for the purposes of this audit report.
30
   These were USDA officials that coordinated meetings between the Federal agencies involved with the StrikeForce
Initiative and the selected CBOs.

                                                                       AUDIT REPORT 91099-0002-21              7
We visited all four CBOs to determine if they achieved the goals, objectives, and performance
measures of the strategic plan. Prior to our field visits, we developed questions directly related
to the performance measures listed in the strategic plan, in order to determine if they were met.
During our site visits, we identified that one of the four CBOs never received the strategic plan.
Furthermore, we determined that all four of the CBOs did not receive any specific, official
guidance as to how to use the StrikeForce Initiative pilot program funding to achieve the goals in
the strategic plan. Additionally, the cooperative agreements used to award the CBOs for the
StrikeForce Initiative pilot program were very vague because they did not contain a detailed
budget, a statement of work, or any guidance to the CBOs pertaining to how to spend the funds.31
As a result, CBO officials had to determine how to use the funds, based on their own
interpretation of the StrikeForce Initiative’s mission, which resulted in funds not being used in
the most effective manner.

The following are examples of the CBOs not using StrikeForce funding in an effective manner:

     ·    Two of four CBOs did not utilize all StrikeForce Initiative funds within the 2-year
          cooperative agreement period and were required to return unused funds to USDA.32
          Federal regulations require all unobligated funds after the expiration of an agreement be
          immediately returned to USDA (see Finding 4).

     ·    One CBO used large portions of its funding for salaries and contracts that produced very
          little measurable outputs. For example, we found that this CBO had 3 contracts with an
          entity for 3 special projects, totaling $225,000. These projects included activities such as
          collecting assessments of flood and wind damage to crops and identifying other CBOs
          engaged in economic development. In addition, we found a lack of evidence that the
          staff’s salaries were attributable to conducting outreach activities. Therefore, most of the
          funding that this CBO received went to the overhead of the organization and to research-
          based projects, rather than being utilized to better promote USDA within underserved
          communities, improve accessibility to USDA programs, or build stakeholder trust.

     ·    One CBO did not use StrikeForce funding to conduct any outreach activities to promote
          USDA programs. Instead, it used the funding to maintain school gardens, build a
          greenhouse, and conduct cooking classes—all unrelated to the three goals of the strategic
          plan.33

Finally, both the cooperative agreements and strategic plan required the CBOs to submit a close-
out, final report 90 days after the expiration of the agreement. Only one of the CBOs submitted a




31
   We found that the budget pages simply stated the entire amounts of the cooperative agreements. Additionally,
two of the cooperative agreements contained no budget sheet at all.
32
   Officials at one CBO stated that they did not receive information describing how these funds could be utilized;
therefore, they were apprehensive to spend the funds.
33
   The cooperative agreement for this CBO was vague and did not specifically prohibit these activities. However,
these activities did not meet the core purpose of the StrikeForce Initiative to help agricultural producers in minority
areas gain equal access to USDA programs.

8        AUDIT REPORT 91099-0002-21
close-out report.34 These reports were to be used by OAO to conduct a final review of the
CBOs’ activities. It is our opinion that these reports, coupled with effective oversight, would
have enabled OAO to determine whether the CBOs were effective in conducting outreach and to
make an overall assessment of the StrikeForce Initiative pilot program to determine if its efforts
were effective. OAO officials stated that they were without standard operating procedures to
complete these actions and that they were finalizing such procedures to improve their oversight
and monitoring of CBOs in the future.

OAO needs to obtain and review the final reports for all of the CBOs and make a determination
on the effectiveness of each CBO in carrying out the StrikeForce Initiative pilot program. The
agency also should issue a report that addresses the overall effectiveness of the pilot program.

OAO Did Not Have Procedures for All Program Activities

OIG reported in February 201335 that OAO’s draft standard operating procedures did not cite all
regulatory requirements.36 OIG also found that OAO officials had not adhered to the
competition guidelines required by the Funding Opportunity Announcement (FOA) for making
determinations on which applicants would receive funding under the Section 2501 Program.37
OAO agreed to revise its standard operating procedures to include all regulatory citations that
govern the Section 2501 Program, and include criteria provided in the FOA in the newly revised
procedures. In this audit, we determined that these revised procedures did not apply to all
program activities, including the StrikeForce Initiative pilot program. OAO officials agreed that
the procedures revised in response to our audit report in February 2013 should be further revised
to apply to all program activities that the office administers.

OAO officials did not effectively execute the StrikeForce Initiative pilot program. The CBOs
were hand-picked, without a competitive process or evidence of written justification for
proceeding noncompetively, as required, and generally had questionable qualifications to achieve
the program’s goals. Furthermore, they did not implement a sufficient process to monitor
and measure the CBOs’ activities. Therefore, we found minimal evidence to support that the
program’s goals were achieved and question the almost $2.7 million in funds that were not
provided on a competitive basis to the CBOs.

Recommendation 1

                                                                                                        for
actions in bypassing Federal regulations in the selection process of the four CBOs.




34
   This CBO submitted a close-out report in February 2013, after the deadline of December 29, 2012. Of the three
remaining CBOs, two have yet to provide close-out reports, and one filed a no-cost extension that expired May 31,
2013.
35
   Audit Report 91099-0001-21, Controls Over the Grant Management Process of the Office of Advocacy and
Outreach, February 28, 2013.
36
   7 C.F.R. §2500.
37
   7 U.S.C. §2279.

                                                                        AUDIT REPORT 91099-0002-21                  9
Agency Response
OAO’s response, dated September 5, 2014, stated that
           .

OIG Position
We do not accept management decision. In order to reach management decision, DM needs to
agree to
                        .

Recommendation 2

Obtain and review the final reports for all of the CBOs and make a determination on each CBO’s
effectiveness in carrying out the StrikeForce Initiative pilot program.

Agency Response
OAO officials stated that they reviewed the year-end performance and financial reports for each
of the CBOs, and held telephone interviews with the executive principals of each to resolve
reporting discrepancies or financial concerns. They also stated that they will review the final
reports for each of the CBOs and make a determination on each CBOs overall effectiveness in
carrying out the StrikeForce Initiative.

OIG Position
We do not accept management decision. Although we agree with OAO’s corrective actions, in
order to reach management decision, OAO needs to provide a date for completing determinations
on each CBOs overall effectiveness in carrying out the StrikeForce Initiative pilot program.

Recommendation 3

Issue a report assessing the overall effectiveness of the StrikeForce Initiative pilot program in
meeting the goals of the strategic plan. The report should include an assessment of the use of the
almost $2.7 million in funds provided to the CBOs.

Agency Response
OAO officials stated they will issue a report that assesses the overall effectiveness of the
StrikeForce Initiative pilot program in meeting the goals of the strategic plan, which will include
an assessment of the use of the almost $2.7 million in funds provided to the CBOs. OAO will
complete this corrective action by September 30, 2015.




10     AUDIT REPORT 91099-0002-21
OIG Position

We accept OAO’s management decision.

Recommendation 4
Revise the standard operating procedures developed by OAO in response to the OIG audit of the
Section 2501 Program to apply to all program activities. These procedures should include
instructions for competitively selecting CBOs and appropriately monitoring their activities.

Agency Response
OAO’s response, dated September 5, 2014, stated that the Section 2501 Program procedures are
being revised to contain instructions for competitively selecting CBOs and appropriately
monitoring their activities.

OIG Position
We do not accept management decision. In order to reach management decision, OAO needs to
revise the standard operating procedures it developed in response to the OIG audit of the Section
2501 Program so that they apply to all program activities and specify the date when they expect
to complete this action.




                                                            AUDIT REPORT 91099-0002-21        11
Finding 2: USDA Did Not Properly Transfer Funds to Pay for the StrikeForce
Initiative Pilot Program
The Office of Small Disadvantaged Business Utilization (OSDBU) and other USDA agencies38
did not properly transfer almost $2.7 million to OAO to fund the StrikeForce Initiative pilot
program. Furthermore, $300,000 of these funds were not properly approved for the pilot
program. DM used reimbursable agreements as the tools to transfer these funds.39 This occurred
because the agencies improperly used the Economy Act, rather than the specific statute providing
authority,40 to transfer the funds.41 In addition, the reimbursable agreement for the $300,000 was
for a different purpose than the pilot program, and was not cancelled and replaced with a new,
approved agreement for the purpose of the pilot program. As a result, OAO did not fully ensure
that the transferred funds still met the specific purpose for which they were originally
appropriated.

The transfer of funds between Federal appropriation accounts is prohibited without specific legal
authority.42 One such authority specifically allows USDA agencies to contribute funds to OAO
if providing such funds furthers the authorized programs of the contributing agency. 43 Another
authority, the Economy Act, authorizes Federal agencies and their components to enter into
agreements with each other to purchase goods or services, and requires Federal agencies to,
among other things, determine if the transfer is in the best interest of the Federal Government.44

OAO requested numerous USDA agencies, as well as the People’s Garden, to transfer funds
from the agencies’ FY 2010 and 2011 appropriation accounts to fund the StrikeForce Initiative
pilot program.45 In total, the agencies contributed almost $2.7 million to pay for the pilot
program, using a total of 19 reimbursable agreements.

USDA Agencies Used the Wrong Authority to Transfer Funds to OAO

For each of FYs 2010 through 2011, OAO was appropriated $20 million to support outreach and
technical assistance to encourage and assist socially disadvantaged farmers and ranchers.46 In
addition, USDA agencies had the authority to contribute additional funding to OAO, as long as
OAO’s outreach to disadvantaged farmers and ranchers furthered the authorized programs of the



38
   The USDA agencies that contributed funds were Rural Development; Agricultural Research Service; Animal and
Plant Health Inspection Service; Food and Nutrition Service; Natural Resources Conservation Service; Risk
Management Agency; Forest Service; Foreign Agricultural Service; Farm Service Agency; Agricultural Marketing
Service; Grain Inspection, Packers, and Stockyards Administration; Food Safety and Inspection Service; and
OSDBU. In addition, the People’s Garden Initiative contributed funding to the pilot program.
39
   Reimbursable agreements are between two or more parties wherein one party agrees to provide another with
services, supplies, or equipment on a cost-reimbursable basis.
40
   7 U.S.C. §2279(a)(4)(B).
41
   A total of 19 reimbursable agreements were used to pay for the StrikeForce Initiative pilot program.
42
   31 U.S.C. §1532.
43
   7 U.S.C. §2279(a)(4)(B).
44
   The Economy Act of 1932, as amended, 31 USC §1535.
45
   These requests were sent various ways, including memoranda and emails.
46
   7 U.S.C. §2279(a)(4)(A)(ii).

12      AUDIT REPORT 91099-0002-21
contributing agency.47 Furthermore, according to Federal appropriations law, the Economy Act
should not be utilized as the authority to complete interagency fund transfers when a more
specific statute exists.48

We found that none of the contributing agencies used the proper authority to transfer funds to
OAO to pay for the StrikeForce Initiative pilot program. Instead of using the specific OAO
statute that already existed, the agencies used the Economy Act as the authority for the fund
transfers for 14 agreements and did not list any specific legal authority for the other
5 agreements.49 In addition, we question whether OAO’s outreach to disadvantaged farmers and
ranchers could have furthered the authorized programs for some of the contributing agencies that
transferred funds. For instance, according to an official from USDA’s Office of the Chief
Financial Officer, the Food and Nutrition Service, as well as the People’s Garden, likely would
not have been able to provide funding to OAO. Specifically, the official questioned whether the
funding they provided to OAO furthered the programs of these agencies by assisting socially
disadvantaged farmers and ranchers.

Based on our conclusion that OAO and the contributing agencies used the wrong authority for
completing the fund transfers, we recommend that OAO seek guidance from the Office of the
General Counsel (OGC) regarding the validity of the transfers, including whether all of the
contributing agencies were eligible to transfer funds, and the appropriate measures to follow in
resolving this matter. If OGC concludes that the transfers were invalid, OGC should provide an
opinion regarding the impact, including whether an Anti-Deficiency Act violation occurred, and
the appropriate action(s) to resolve the matter.

We questioned current OAO officials about the matter. However, they were unable to provide a
reason why previous officials elected to use the Economy Act, rather than its more specific
statute to obtain funding from the contributing agencies. The current OAO officials stated that
they would ensure that the appropriate authority is used in the future. They did not state the
measures to be taken in the future. Thus, in our view, OAO needs to establish a process to
ensure that the appropriate authority is selected when it conducts interagency fund transfers.

OAO Used Funds Not Properly Approved for the StrikeForce Initiative Pilot Program

OAO used $300,000 to fund the StrikeForce Initiative pilot program that was not properly
transferred from the contributing agency. Rural Development, the contributing agency,
transferred the funds to OSDBU using an approved reimbursable agreement, but OSDBU then
transferred these funds to OAO without a new agreement. Therefore, these funds were not
properly approved to be used for the pilot program. The original purpose of the funds was to
develop and implement a framework for cooperative activities between OSDBU and a specific
corporation necessary to establish venture capital funds in North Carolina and Virginia


47
   7 U.S.C. §2279(a)(4)(B).
48
   Principles of Federal Appropriations Law, Third edition, Volume III, GAO-08-978SP, dated September 1, 2008,
page 12-79.
49
   Because a majority of the agreements listed the Economy Act as the authority for transferring the funding, we
concluded that the five agreements without an authority listed were also handled as Economy Act transfers.

                                                                     AUDIT REPORT 91099-0002-21              13
counties.50 However, according to an OSDBU official involved with the transfer, the grantee
initially selected to perform the services for this agreement had to withdraw. OSDBU and Rural
Development officials then informally agreed to utilize these funds for the StrikeForce Initiative
pilot program, without approving a new agreement.51 Rural Development should have cancelled
its agreement with OSDBU and entered into a new agreement with OAO for the StrikeForce
Initiative pilot program.

We also found that FMD should have recognized that the approved agreement was not signed by
the proper agency official before it processed the release of these funds in FMMI. The
agreement to transfer the funds from OSDBU to OAO was improperly signed by an OAO
official, as opposed to an OSDBU official. FMD should not have processed the transfer of the
$300,000 to OAO without the signature of the responsible OSDBU official (see Finding 3).

OAO officials involved with the reimbursable agreement process agreed with our conclusions
and stated that they followed an informal process learned on the job for completing reimbursable
agreements and that they did not have written procedures for completing them. They also stated
that they used a generic form for an agreement that is used throughout USDA. However, OAO
officials were unable to provide any instructions that they followed to complete these
agreements.

We concluded that Rural Development should have documented its cancellation of the Economy
Act agreement with OSDBU and entered into a new agreement with OAO. Rural Development
should cancel its Economy Act agreement with OSDBU. Finally, OAO needs to sign a new
agreement with Rural Development to properly document the transfer of the $300,000 used for
the StrikeForce Initiative pilot program and ensure that all related financial transactions are
adjusted in FMMI.

Recommendation 5

Request that OGC review the legal authority used by the contributing agencies to transfer funds
in FYs 2010-2011 for the StrikeForce Initiative pilot program and provide a legal opinion
regarding the validity of the transfers, including whether all of the contributing agencies were
eligible to transfer funds. If invalid, request that OGC provide an opinion regarding its impact,
including whether an Anti-Deficiency Act violation occurred, and the appropriate action(s) to
resolve the matter.

Agency Response
OAO officials stated that they met with OGC and the Office of the Chief Financial Officer
regarding the validity of the transfers. OAO will request a written legal opinion to be completed
by September 30, 2015.



50
  North Carolina and Virginia were not States selected for the StrikeForce Initiative pilot program.
51
  These funds were utilized for StrikeForce-related activities, such as collecting assessments of flood and wind
damage to crops and identifying other CBOs engaged in economic development. See Finding 1.

14      AUDIT REPORT 91099-0002-21
OIG Position
We accept OAO’s management decision.

Recommendation 6

Establish a process to ensure that the appropriate authority is selected when conducting
interagency fund transfers.

Agency Response
OAO officials stated that the Office of the Chief Financial Officer is developing guidance, which
will illustrate the agency/authority available for use by program managers under various
scenarios, and that this tool will be used throughout USDA. This corrective action will be
completed by September 30, 2015.

OIG Position
We accept OAO’s management decision.

Recommendation 7

Require Rural Development to cancel its Economy Act agreement with OSDBU. In addition,
OAO needs to enter into a new agreement with Rural Development to properly document the
transfer of the $300,000 used to fund the StrikeForce Initiative pilot program and ensure that all
related financial transactions are adjusted in FMMI.

Agency Response
OAO officials stated they will work with OGC and the Office of the Chief Financial Officer in
requesting Rural Development to cancel its Economy Act agreement with OSDBU. If
authorized, OAO will enter into a new agreement with Rural Development to properly document
the transfer of funds for the StrikeForce Initiative pilot program. In addition, OAO officials
stated that all related financial transactions in the FMMI system will be adjusted to the extent
possible. These corrective actions will be completed by September 30, 2015.

OIG Position
We accept OAO’s management decision.




                                                             AUDIT REPORT 91099-0002-21         15
Recommendation 8

Establish and implement policies and procedures for the reimbursable agreement process.

Agency Response
OAO officials stated that the Office of the Chief Financial Officer is revising the standard
operating procedures to cover all funding procedural activities across USDA, and that the
procedures will include instructions to implement reimbursable agreements. The procedures will
be completed by September 30, 2015.

OIG Position
We accept OAO’s management decision.




16     AUDIT REPORT 91099-0002-21
Finding 3: USDA Overpaid CBOs and Excess Funds Were Not Returned to
Contributing Agencies
OAO did not properly authorize the additional disbursement of $784,152 in StrikeForce funding
to two CBOs. OAO originally approved cooperative agreements, totaling $600,000, for these
two CBOs and did not issue new agreements for the additional $784,152. In addition, FMD
processed the transactions for the additional funding without sufficient documentation, and also
charged USDA agencies approximately $206,000 in excess of the funds provided to the CBOs.
This occurred because OAO did not develop guidance for the completion of the cooperative
agreements or establish a procedure to identify when a CBO reached the funding limit of its
cooperative agreement (e.g., by comparing the requests to expend funds to funds available to be
expended prior to authorization). Furthermore, FMD did not develop guidance to manage the
transfer of funds to the CBOs in FMMI. In this instance, the additional disbursements did not
result in a loss to the Federal Government because agencies transferred to OAO more than the
amounts on the cooperative agreements for the StrikeForce Initiative pilot program. However, if
the contributing agencies had not provided more funding through reimbursable agreements,
OAO may not have had sufficient funds to cover the additional disbursements by the CBOs.
Overall, OAO and FMD need to implement stronger management controls to provide a greater
level of assurance that they can properly manage future fund transfers approved using
reimbursable and cooperative agreements.

Federal agencies must establish controls that reasonably ensure that expenditures applicable to
agency operations are properly recorded and accounted for to maintain accountability over
agency assets.52 Furthermore, Federal regulations require recipients to report the need for any
additional Federal funding above the original agreement amount.53

OAO and FMD both had responsibilities in the cooperative agreement process to ensure that
only authorized funds were disbursed to the CBOs. The process began with OAO entering into a
cooperative agreement with each CBO to perform specific activities. OAO was responsible for
reviewing and approving the CBOs’ requests for disbursement, while FMD was responsible for
accurately processing and disbursing the funds in FMMI. Both OAO and FMD contributed to
the CBOs receiving more funding than authorized.

Disbursement of Additional Funds to the CBOs

OAO used cooperative agreements to award funding to the four CBOs.54 These documents
authorized each of the four CBOs to receive a specified amount, totaling $1.7 million, to conduct
outreach activities. Once the amounts were awarded, CBOs formally requested the funding from
OAO.55 After OAO received these requests, agency officials would review and approve them,
then authorize FMD to process the disbursement of funds to the CBOs. 56


52
   OMB Circular A-123, Management Accountability and Control, December 2004.
53
   2 C.F.R. §215.25(c) (1) and (4).
54
   Form REE-451.
55
   CBOs filed requests for advances for these funds.
56
   OAO completed procurement requests to authorize FMD to disburse the funds to the CBOs.

                                                                    AUDIT REPORT 91099-0002-21   17
We found that OAO provided $784,152 in additional funding to two of the four CBOs for
StrikeForce-related projects. However, OAO did not formally document the approval of this
additional funding with new or amended cooperative agreements with the CBOs. Rather, OAO
relied on verbal agreements to award the additional funds.
was unable to provide an explanation for why new or amended agreements were not issued for
the additional funding.

As a result, these requests exceeded the original award amounts on the cooperative agreements
for the two CBOs. We determined that OAO did not establish standard operating procedures that
required the approving officials to compare the total amounts requested and disbursed to the
CBOs with the award amount on the cooperative agreements. Had these procedures existed, the
official would have determined that the amounts disbursed to the CBOs exceeded the award
amounts on the cooperative agreements.

Furthermore, we found FMD processed these requests without ensuring there was an amended or
new agreement that authorized the additional disbursements. FMD had not established standard
operating procedures that would require officials to compare fund disbursements to approved
cooperative agreements to prevent funding levels from being exceeded. Additionally, FMMI did
not contain a feature to prevent disbursements in excess of the approved agreements. As a result,
OAO and FMD provided the CBOs with $784,152 in excess of the authorized cooperative
agreements. Fortunately, in this case the agencies contributing to the StrikeForce Initiative pilot
program provided OAO with more funds than the amounts listed on the cooperative agreements
and, therefore, covered the excess payments and prevented a loss to the Federal Government.

We discussed these issues with OAO and FMD officials, and they agreed that they lacked
procedures for the cooperative agreement process. An OIG audit of OAO’s Section 2501
Program also identified the lack of policies and procedures as an issue.57 As a corrective action,
OAO developed standard operating procedures for the grant process. OAO officials stated that
they planned to use these same instructions for cooperative agreements. We concluded that
OAO needs to update these procedures to include the completion and management of
cooperative agreements.

Excess Funds Were Not Returned to Contributing Agencies

FMD also had the responsibility to process the funds provided to the CBOs by the contributing
agencies in the FMMI system.58 Funding for the StrikeForce Initiative pilot program was
obligated in FMMI once the reimbursable agreements were authorized. OAO provided funding
to each of the CBOs as they requested it, and then OAO was reimbursed by FMD from the
funding provided by the contributing agencies. According to FMD officials, the FMMI system
was to automatically reimburse OAO from the contributing agencies, based on the percentage




57
   Audit Report 91099-0001-21, Controls Over the Grant Management Process of the Office of Advocacy and
Outreach, February 28, 2013.
58
   Reimbursable agreements are discussed in greater detail in Finding 2.

18      AUDIT REPORT 91099-0002-21
that each agency contributed overall to the pilot program.59 Agency officials referred to this
automatic reimbursement as the settlement process.

We found FMD collected $2,385,00060 from the agencies, even though only approximately
$2,185,000 was disbursed to the CBOs. We met with FMD to determine where the excess funds
were, but FMD could not immediately identify where the excess funding was located. After
additional research, FMD officials determined that the agencies had not been charged
proportionately because they had used incorrect manual journal entries, instead of the automatic
settlement process. FMD officials stated that they were unaware why manual journal entries
were used, as opposed to the settlement process, and that the officials that completed these
entries were no longer with FMD. FMD agreed with our findings and agreed to issue
approximately $200,000 in credit memoranda to the contributing agencies to adjust for the
excess charges.61 FMD officials also stated that this occurred because they did not establish a
formal policy that would enforce the use of the settlement process each month, instead of manual
journal entries. In our opinion, if the settlement process is fully employed, it will provide a
greater level of assurance in the future that agencies are properly charged for the contributions
that they provide.

CBOs received more funding than approved on cooperative agreements. In addition, USDA
agencies that contributed to the StrikeForce Initiative pilot program were not reimbursed for
excess funds not used. OAO and FMD need to implement stronger management controls to
provide a greater level of assurance that they can properly manage future fund transfers approved
using reimbursable and cooperative agreements.

Recommendation 9

Revise OAO’s grant procedures developed for the Section 2501 Program to include the
completion and management of cooperative agreements.

Agency Response
OAO officials stated that the Office of the Chief Financial Officer is revising the present
standard operating procedures to cover all funding activities across the USDA, and that these
procedures will include instructions for completing and managing cooperative agreements.
These procedures will be completed by September 30, 2015.

OIG Position
We accept OAO’s management decision.

59
   Funds were to be collected proportionately to the percentage of each agency’s contribution. For example, if the
Forest Service contributed 10 percent to the overall total of the StrikeForce-related funds that were collected, each
time OAO was reimbursed, 10 percent of that withdrawal would come from the Forest Service’s contribution.
60
   This amount does not include the $300,000 to fund the StrikeForce Initiative pilot program that was not properly
transferred from OSDBU.
61
   We also found approximately $6,000 in addition to this amount that was not properly charged to OAO
appropriations.

                                                                         AUDIT REPORT 91099-0002-21                19
Recommendation 10
Implement procedures that would require FMD officials to compare fund disbursements to
approved cooperative agreements to prevent funding levels from being exceeded.

Agency Response
OAO officials stated that cooperative agreements are entered into FMMI and that the automated
control within the FMMI application does not allow disbursements to exceed the obligated funds.
This corrective action was completed June 1, 2014.

OIG Position
We accept OAO’s management decision.

Recommendation 11
Implement a system control within FMMI to prevent disbursements in excess of funding
amounts approved on cooperative agreements.

Agency Response
OAO officials stated that the Office of the Chief Financial Officer has implemented a procedure
of entering cooperative agreements in the FMMI application and the agreements are designated a
purchase order obligation, and disbursements are made against the obligated amount. The
automated control within the FMMI application does not allow disbursements to exceed the
obligated funds. This corrective action was completed June 1, 2014.

OIG Position
We accept OAO’s management decision.

Recommendation 12
Implement and enforce FMD’s automated settlement process to timely and proportionately
collect funds from contributing agencies when using reimbursable agreements.

Agency Response
OAO’s response, dated September 5, 2014, stated that the Office of the Chief Financial Officer is
using an automated settlement process for all cooperative agreements and that all staff offices
were transitioned to the automated process in the fourth quarter of FY 2014. In addition,
officials stated that staff will be retrained on settlement and billing to be completed by
September 30, 2015.



20     AUDIT REPORT 91099-0002-21
OIG Position
We accept OAO’s management decision.




                                       AUDIT REPORT 91099-0002-21   21
Finding 4: OAO Was Unaware that CBOs Had Expired StrikeForce Funds
Two CBOs had approximately $303,000 in funds from the StrikeForce Initiative pilot program
that were unused after the expiration date listed on the cooperative agreements. In addition,
OAO officials were unaware that these funds were unspent and needed to be returned to the
Federal Government. This occurred because agency officials did not perform sufficient
oversight and monitoring of the CBOs’ activities. As a result, USDA did not receive the full
benefit from the funding provided to these CBOs to conduct effective outreach efforts, which
was the intent of the pilot program.

Federal regulations require agencies to monitor a monetary award during the entire period of an
agreement.62 The agreement period for the funding from the StrikeForce Initiative pilot program
ended on September 29, 2012, the expiration date listed on all of the cooperative agreements.
Federal managers must also develop controls to monitor activities; these should be aimed at
validating the adequacy and integrity of program activities.63

OAO utilized cooperative agreements to fund the four CBOs participating in the pilot program.
The cooperative agreements outlined the purpose and amount of funding to be provided to the
CBOs, as well as the deadline by which these funds should be obligated.64 We reviewed the
CBOs’ financial documents to determine if the amount of funds utilized by the CBOs reconciled
with the amounts stated on the cooperative agreements, and if they were used before the
expiration dates of the agreements. Specifically, we reviewed requests for advance or
reimbursement, procurement requests, bank records, CBO accounting systems, transaction logs,
and receipts.

Based on our analysis, we found that two CBOs had approximately $303,000 of unobligated
funds after the expiration date of the two cooperative agreements (one CBO had approximately
$19,000 remaining, while the other CBO had $284,000 remaining).65 We discussed this with
OAO officials and they were unaware that these CBOs had expired unobligated funds.
According to regulations, agencies are to monitor the activities of the awards they issue and
confirm that these activities are adequate. We found that OAO officials did not establish
sufficient guidance to use during their oversight activities of the four CBOs. Without sufficient
instructions for its staff, OAO was unable to adequately monitor the activities of the CBOs. We
address the lack of procedures for monitoring the CBOs’ activities in Finding 1.

According to Federal regulations, all unobligated funds after the expiration of an agreement must
be immediately remitted to USDA.66,67 OAO needs to ensure that the two CBOs have returned
the approximately $303,000 in expired funds to the agency ($19,000 from one CBO and


62
   7 C.F.R. §2500.047.
63
   GAO’s “Standards for Internal Control in the Federal Government,” November 1999.
64
   Obligated refers to funds that have been committed to a specific purpose prior to the expiration of a cooperative
agreement.
65
   One CBO stated that it did not receive information describing how these funds could be utilized; therefore, it was
apprehensive about spending them.
66
   OAO is responsible for collecting the remaining funds from the CBOs.
67
   7 C.F.R. §3015.120(b)(2).

22      AUDIT REPORT 91099-0002-21
$284,000 from the other) and that the CBOs have also provided OAO with documentation to
support these amounts.68,69 OAO should also consider any necessary enforcement actions
against the CBOs if the funds or documentation are not remitted in a timely fashion. Because
OAO officials did not perform sufficient oversight and monitoring of the CBOs’ activities to
ensure they appropriately used all funding they received from the pilot program, USDA did not
receive the full benefit from the CBOs to conduct outreach efforts, which was the intent of the
pilot program.

Recommendation 13

Ensure that the two CBOs have returned the expired funds, totaling approximately $303,000, to
USDA, and that the CBOs have provided the appropriate support for these transactions. If these
actions are not completed in a timely manner, pursue any necessary enforcement actions.

Agency Response
OAO officials stated that $168,390 of the expired funds had been recovered, and that they are
taking the necessary actions to recover the balance in a timely manner. In addition, officials
stated that they will pursue enforcement actions if necessary.

OIG Position
We do not accept management decision. In order to accept management decision, OAO officials
need to agree to recover the total amount reported in Exhibit A. OAO also needs to provide OIG
with a bill for collections for the agreed upon amount and evidence that an accounts receivable has
been established in OAO’s accounting records.




68
     Proper supporting documents include items such as expense reports and close-out reports.
69
     According to OAO officials, these CBOs have begun to return the funding to USDA.

                                                                         AUDIT REPORT 91099-0002-21   23
Scope and Methodology 
We performed audit work at the OAO office located in Washington, D.C.; and at four CBOs
located in Arkansas, Georgia, and Mississippi. We performed audit fieldwork from July 2012
through July 2014.

Our audit reviewed the almost $2.7 million in funding transferred in fiscal years 2010 and 2011
for the StrikeForce Initiative pilot program. To determine OAO’s level of management and
oversight, we evaluated the reimbursable agreement process utilized by various agencies within
the Department and OAO to collect the funding for the pilot program. This included reviewing
all 19 of the reimbursable agreements issued and how these documents were completed. We also
evaluated the award process utilized by OAO to select and fund the four CBOs for the pilot
program by interviewing key OAO officials and examining the agreements issued to transfer the
funding to the CBOs. We also reviewed OAO policies and procedures and applicable Federal
policies, and evaluated how OAO monitored the CBOs activities in Arkansas, Georgia, and
Mississippi.

To accomplish our objectives we:

     ·   Interviewed OAO officials responsible for the selection, oversight, and management of
         the StrikeForce Initiative pilot program.

     ·   Reviewed applicable laws and regulations such as 7 C.F.R. §3015.158, Uniform
         Assistance Regulations; 7 C.F.R. §2500, OAO Federal Financial Assistance Programs,
         General Award Administrative Procedures; 7 U.S.C. §2279, Outreach and Assistance for
         Socially Disadvantaged Farmers and Ranchers; 31 U.S.C. §1535 Economy Act; and 7
         C.F.R. §215.22, Uniform Administrative Requirements with Institutions of Higher
         Education, Hospitals, and Other Non-Profit Organizations.

     ·   Reviewed OAO policies and procedures, including the StrikeForce Initiative pilot
         program strategic plan.

     ·   Interviewed FMD officials responsible for the execution of financial transactions for the
         pilot program.

     ·   Reviewed applicable documents, such as OAO’s procurement requests, requests for
         advance or reimbursement that were submitted by the CBOs, and FMD’s FMMI financial
         reports used to execute and manage disbursement of funds to the CBOs.

     ·   Interviewed officials from various agencies within the Department (e.g., Rural
         Development, Farm Service Agency, Natural Resources Conservation Service, OSDBU)
         and reviewed documentation provided by those officials. These officials included the
                                                      ,
                                      ,



24       AUDIT REPORT 91099-0002-21
                                             , and
                      .

   ·   Reviewed and analyzed the reimbursable agreements used to collect funds from the
       contributing agencies and the cooperative agreements used to award funds to the CBOs.

   ·   Interviewed officials from the CBOs and reviewed documentation provided by those
       officials, including statements of work, supporting documentation for the use of funds
       (e.g., receipts, invoices, cancelled checks, bank statements), accomplishment reports, and
       close out reports, to determine if they had adequately conducted and properly reported
       StrikeForce activities.

   ·   Conducted 17 site visits to projects funded by the pilot program and managed by the
       4 CBOs. These included greenhouses, farmer’s markets, and community gardens.

We conducted our audit in accordance with generally accepted government auditing standards.
These standards require that we plan and perform the audit to obtain sufficient and appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provided a reasonable basis for our findings.

During the course of our audit, we did not verify information in any OAO electronic information
system, and make no representation regarding the adequacy of any agency computer systems or
the information generated from them.




                                                           AUDIT REPORT 91099-0002-21         25
Abbreviations 
CBO ...............................................................Community-Based Organizations
CFR ................................................................Code of Federal Regulations
DM .................................................................Departmental Management
FMD ...............................................................Financial Management Division
FMMI .............................................................Financial Management Modernization Initiative
FOA................................................................Funding Opportunity Announcement
FY ..................................................................Fiscal Year
GAO ...............................................................Government Accountability Office
OAO ...............................................................Office of Advocacy and Outreach
OGC ...............................................................Office of the General Counsel
OIG ................................................................Office of Inspector General
OSDBU ..........................................................Office of Small Disadvantaged Business Utilization
State Office StrikeForce Coordinators ...........State Coordinators
USDA.............................................................Department of Agriculture




26      AUDIT REPORT 91099-0002-21
Exhibit A: Summary of Monetary Results 

Finding
             Recommendation               Description                 Amount                   Category
Number
                                      Funds Not Provided
                                                                                         Questioned Costs and
     1                 3               Competitively to           $2,382,203.9070
                                                                                         Loans, No Recovery
                                            CBOs

                                                                                         Unsupported Costs
                                      Expired Unobligated
     4                13                                            $302,796.10          and Loans, Recovery
                                      Funding From CBOs
                                                                                         Recommended

TOTAL                                                                $2,685,000


The table above summarizes monetary results by finding and includes a description, dollar
amount, and the category of questioned costs. The table illustrates Finding 1, Recommendation
3 has $2,382,203.90 of questioned costs and loans with no recovery recommended and Finding
4, Recommendation 13 has $302,796.10 of unsupported costs and loans with recovery
recommended.




70
  The total amount of funds not provided competitively to CBOs was $2.685 million (Finding 1); however, we
reduced this total by $302,796.10—the amount of unobligated funding that expired from the CBOs (Finding 4).
This prevents the duplication of these costs in our report.

                                                                    AUDIT REPORT 91099-0002-21                27
Agency's Response 




              USDA’S
 OFFICE OF ADVOCACY AND OUTREACH
     RESPONSE TO AUDIT REPORT




28   AUDIT REPORT 91099-0002-21
United States
Department of
Agriculture
                         September 5, 2014
Office of the
Assistant Secretary
for Administration       AUDIT
Office of Advocacy and
                         NUMBER:        91099-0002-21
Outreach

1400 Independence        TO:            Gil H. Harden
Avenue SW                               Assistant Inspector General for Audit
Washington, DC                          Office of Inspector General
20250-0103

                         FROM:          Carolyn C. Parker//s//
                                        Director
                                        Office of Advocacy and Outreach

                         SUBJECT:       USDA StrikeForce Initiative

                         This letter responds to your request for management’s response to the audit
                         recommendations in the draft audit report No. 91099-0002-21. If you have
                         any questions or need additional information, please contact our office at
                         (202) 720-6350 or Christian Obineme at Christian.obineme@osec.usda.gov.

                         The Office of Advocacy and Outreach provides the following responses to
                         the audit recommendations:

                         RECOMMENDATION 1:
                                                                            part in bypassing Federal
                         regulations in the selection process of the four CBOs.

                         AGENCY RESPONSE: The
                                                                                  .

                         DATE CORRECTIVE ACTION WILL BE COMPLETED:

                         RECOMMENDATION 2: Obtain and review the final reports for all of the
                         CBOs and make a determination on each CBO‘s effectiveness in carrying out
                         the StrikeForce Initiative pilot program.

                         AGENCY RESPONSE: OAO reviewed the year-end performance and
                         financial reports for each of the Community-Based Organizations (CBO).
                         Telephone interviews were held with the executive principals to resolve
                         reporting discrepancies or financial concerns. OAO will review the final
                         reports for each of the CBO’s and make a determination on each CBO’s
                         overall effectiveness in carrying out the Strike Force Initiative.

                                                  An Equal Opportunity Employer
FINAL ACTION COMPLETION DATE: September 25, 2013

RECOMMENDATION 3: Issue a report assessing the overall effectiveness
of the StrikeForce Initiative pilot program in meeting the goals of the
strategic plan. The report should include an assessment of the use of the
almost 2.7 million in funds provided to the CBOs.

AGENCY RESPONSE:

OAO will issue a report that assesses the overall effectiveness of the
StrikeForce Initiative pilot program in meeting the goals of the strategic plan,
which includes an assessment of the use of almost $2.7 million in funds
provided to the CBO’s.

DATE CORRECTIVE ACTION WILL BE COMPLETED: September 30,
2015

RECOMMENDATION 4: Revise the standard operating procedures
developed by OAO in response to the OIG audit of the Section 2501 grant
program to apply to all program activities. These procedures should include
instructions for competitively selecting CBOs and appropriately monitoring
their activities.

AGENCY RESPONSE: OAO requests closure of this recommendation.
StrikeForce is managed by the National Food and Agriculture Council and
does not provide financial assistance to CBOs. The Section 2501 grant
policy and procedures are being revised to contain instruction for
competitively selecting CBOs and appropriately monitoring their activities.

DATE FINAL CORRECTIVE ACTION IMPLEMENTED: September 30,
2015

RECOMMENDATION 5: Request OGC review the legal authority used by
the contributing agencies to transfer funds in FY 2010-2011 for the
StrikeForce Initiative pilot program and provide a legal opinion regarding the
validity of the transfers, including whether all of the contributing agencies
were eligible to transfer funds. If invalid, request that OGC provide an
opinion regarding its impact including whether an Anti-Deficiency Act
violation occurred, and the appropriate action(s) to resolve the matter.

AGENCY RESPONSE: OAO has met with the Office of the General
Counsel (OGC) and the Office of the Chief Financial Officer (OCFO)
regarding the validity of the transfers. OAO will request a written legal
opinion. The transfer action was an administrative error which will be
resolved through training by OCFO to all staff.



                         An Equal Opportunity Employer
DATE CORRECTIVE ACTION WILL BE COMPLETED: September 30,
2015

RECOMMENDATION 6: Establish a process to ensure that the appropriate
authority is selected when conducting interagency fund transfers.

AGENCY RESPONSE: The OCFO is developing guidance which will
illustrate the agency/authority available for use by program managers under
various scenarios. This tool will be used throughout USDA.

DATE CORRECTIVE ACTION WILL BE COMPLETED: September 30,
2015

RECOMMENDATION 7: Require Rural Development to cancel its
Economy Act agreement with OSDBU. In addition, OAO needs to enter into
a new agreement with Rural Development to properly document the transfer
of the $300,000 used to fund the StrikeForce Initiative pilot program and
ensure that all related financial transactions are adjusted in FMMI.

AGENCY RESPONSE: OAO will work with OGC and the OCFO in
requesting Rural Development to cancel its Economy Act Agreement with
OSDBU. If authorized, OAO will enter into a new agreement with Rural
Development to properly document the transfer of funds for the StrikeForce
Initiative pilot program. All related financial transactions in the FFMI
system will be adjusted to the extent possible.

DATE CORRECTIVE ACTION WILL BE COMPLETED: September 30,
2015

RECOMMENDATION 8: Establish and implement policies and procedures
for the reimbursable agreement process.

AGENCY RESPONSE: The OCFO is revising their standard operating
procedures to cover all funding procedural activities across USDA. The
procedures will include instructions to implement reimbursable agreements.

DATE CORRECTIVE ACTION WILL BE COMPLETED: September 30,
2015

RECOMMENDATION 9: Revise OAO’s grant procedures, developed for
the Section 2501 program, to include the completion and management of
cooperative agreements.

AGENCY RESPONSE: The OCFO is revising the present standard
operating procedures to cover all funding activities across the department.



                         An Equal Opportunity Employer
The procedures will include instruction for completing and managing
cooperative agreements.

DATE CORRECTIVE ACTION WILL BE COMPLETED: September 30,
2015

RECOMMENDATION 10: Implement procedures that would require the
FMD officials to compare fund disbursements to approved cooperative
agreements to prevent funding levels from being exceeded.

AGENCY RESPONSE: OAO requests closure of this recommendation.
Cooperative Agreements are entered into the OCFO’s Financial Management
Modernization Initiative (FMMI) application. The automated control within
the FMMI application does not allow disbursements to exceed the obligated
funds.

DATE FINAL CORRECTIVE ACTION COMPLETED: June 1, 2014

RECOMMENDATION 11: Implement a system control within FMMI to
prevent disbursements in excess of funding amounts approved on cooperative
agreements.

AGENCY RESPONSE: OAO requests closure of this recommendation. The
OCFO has implemented a procedure of entering cooperative agreements into
the FMMI application. The cooperative agreements are designated a
purchase order obligation, and disbursements are made against the obligated
amount. The automated control within the FMMI application does not allow
disbursements to exceed the obligated funds.

DATE FINAL CORRECTIVE ACTION COMPLETED: June 1, 2014

RECOMMENDATION 12: Implement and enforce the FMD’s automated
settlement process to timely and proportionately collect funds from
contributing agencies when using reimbursable agreements.

AGENCY RESPONSE: OAO requests closure of this recommendation. The
OCFO is using an automated settlement process for all cooperative
agreements. All of the staff offices were transitioned to the automated
process in the fourth quarter of fiscal year 2014. Staff retraining on
settlement and billing is scheduled for September 2015.

DATE CORRECTIVE ACTION WILL BE COMPLETED: September 30,
2015

RECOMMENDATION 13: Ensure that the two CBO s have returned the
expired funds totaling approximately $303,000, to USDA and the CBOs have


                       An Equal Opportunity Employer
provided the appropriate support for these transactions. If these actions are
not completed in a timely manner, pursue any necessary enforcement actions.

AGENCY RESPONSE: The $303,000 represents $168,390 of the expired
funds that have been recovered. OAO is taking necessary actions to recover
the balance in a timely manner and if necessary will pursue enforcement
actions as recommended.

DATE FINAL CORRECTIVE ACTION COMPLETED: September 30,
2015




                        An Equal Opportunity Employer
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
